No. 19AIN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, APPLICANT
v.
STATE OF CALIFORNIA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT, via email and first-class mail, postage prepaid, this
13th day of September, 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 13, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19AUNITED STATES OF AMERICA
STATE OF CALIFORNIA, ET AL.

AIMEE FEINBERG
DEPUTY SOLICITOR GENERAL
CALIFORNIA DEPARTMENT OF JUSTICE
1300 I STREET
SUITE 125
SACRAMENTO, CA 94244-2550
AIMEE.FEINBERG@DOJ.CA.GOV

